as
suo  CQCKLE

. E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B tiefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

Nos. 19-267 & 19-348

OUR LADY OF GUADALUPE SCHOOL,
Petitioner,
v.
AGNES MORRISSEY-BERRU,
Respondent.
ST. JAMES SCHOOL,
Petitioner,
v.
DARRYL BIEL, AS PERSONAL REPRESENTATIVE
OF THE ESTATE OF KRISTEN BIEL,
Respondent.

 

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF AMICI CURIAE OF
CHILD USA; LAW, RELIGION & CIVIL RIGHTS PROFESSORS MIGUEL H. DIAZ,
CHARLES E. CURRAN, MARGARET A. FARLEY, MARCI HAMILTON, ANN C.
MCGINLEY, ANGELA D. MORRISON, MICHAEL A. OLIVAS, JEAN PORTER, & JESSICA
L. ROBERTS; DIGNITYUSA; CATHOLICS FOR CHOICE: NEW WAYS MINISTRY &
QUIXOTE CENTER IN SUPPORT OF RESPONDENTS in the above entitled case complies with
the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century
Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 6781 words,
excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 1 Ith day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 5, 2003

 

Ae) Kevee, 0. Low Ondhao bt. Ole

Notary Public Affiant 39300
